Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




              Retaining
            Foster Parents




                    JANET REHNQUIST
                     Inspector General

                         MAY 2002
                       OEI-07-00-00601
                  OFFICE OF INSPECTOR GENERAL

                                    http://www.oig.hhs.gov/


The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended,
is to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as
the health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services
The OIG' s Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations
in order to reduce waste, abuse, and mismanagement and to promote economy and efficiency
throughout the Department.

Office of Evaluation and Inspections
The OIG' s Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and
the public. The findings and recommendations contained in the inspections reports generate rapid,
accurate, and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental
programs.

Office of Investigations
The OIG' s Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions, or
civil monetary penalties. The OI also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support in OIG’s internal
operations. The OCIG imposes program exclusions and civil monetary penalties on health care providers
and litigates those actions within the Department. The OCIG also represents OIG in the global
settlement of cases arising under the Civil False Claims Act, develops and monitors corporate integrity
agreements, develops model compliance plans, renders advisory opinions on OIG sanctions to the health
care community, and issues fraud alerts and other industry guidance.
                           EXECUTIVE                   SUMMARY

PURPOSE

         To identify challenges in retaining foster parents.

BACKGROUND

         State child welfare agencies are tasked with the responsibility of protecting children from
         abuse and neglect, which sometimes requires that children be removed from their homes
         and placed in foster care. Based on information reported to the Administration for
         Children and Families (ACF) via the Adoption and Foster Care Analysis and Reporting
         System, as of March 31, 2000, there were 581,000 children in foster care. Forty-seven
         percent of those children were cared for in non-relative foster family homes.

         The ACF has regulatory oversight of the Title IV-E foster care program. The Title IV-E
         foster care program is designed to assist States in covering the costs for children in foster
         care by providing States with unlimited matching funds for children who meet income
         eligibility and other program requirements. Federal expenditures for the Title IV-E foster
         care program expenses totaled $4 billion in fiscal year (FY) 1999 and $4.3 billion in
         FY 2000. Federal funding for the Title IV-E foster care program totalled $4.4 billion in
         FY 2001. Estimated Federal funding for the program is $5.1 billion in FY 2002.

         This report focuses on States’ efforts to retain foster care families. A separate report,
         “Recruiting Foster Parents,” (OEI-07-00-00600), addresses the issues associated with the
         recruitment of these families. We used two mechanisms to conduct this inspection. The
         primary source of the information presented in this report stems from focus group
         discussions with child welfare staff and foster parents in five States. We used a mail
         survey to obtain additional information from the foster care program managers in the
         50 States, the District of Columbia, Puerto Rico, and the Virgin Islands to determine their
         efforts to retain foster care families.


FINDINGS

Foster Families Desire Greater Opportunity to Voice Their Concerns

         Foster parents assert that they have many expectations placed on them by the foster care
         agencies, but are frustrated by their perception that they have no voice in many important
         decisions regarding the lives of the foster children in their care. Suggestions by foster
         parents concerning the needs and best interests of foster children can go unheeded.



Retaining Foster Parents                           i                                     OEI-07-00-00601
They Experience Limited Caseworker Support

         Caseworkers are a potentially valuable resource to the foster care program because they
         can provide foster families with the support and assistance necessary to facilitate smooth
         transitions into temporary homes for foster children. However, foster parents said
         caseworkers are often inaccessible and slow to respond to the needs of children and foster
         parents. Multiple responsibilities placed on caseworkers contribute to unmanageable
         workloads and high turnover, creating a disconnect in relationships between foster
         parents and caseworkers. Because of this, foster parents expressed difficulty establishing
         positive rapport with caseworkers.

They Need More Help Obtaining Services for Themselves and Their Foster
Children

         Because children enter foster care with more health and behavior problems than in the
         past, the need for quality and accessible services has increased significantly. However,
         foster parents are finding it increasingly difficult to obtain necessary support services,
         such as respite, child care, dental, medical, and mental health, for the children in their
         care.

False Allegations of Abuse and Investigations Trouble Foster Parents

         Foster parents and caseworkers agree that foster families are often falsely accused of
         abuse or neglect by the children entrusted to their care. Many new foster parents are
         unaware of the intrusiveness and impact investigations of such abuse and neglect have on
         the lives of foster parents. Foster families decide to exit the system because of the
         repercussions from false allegations by foster children.

Program Managers Lack Data Needed to Improve Retention

         States lack the performance indicators and data collection tools needed to accurately
         assess why families choose to discontinue fostering. The absence of these data elements
         may explain why there are discrepancies between what foster parents and foster care
         program managers consider the reasons families choose to no longer continue fostering.

RECOMMENDATIONS

         Foster parents who decide to no longer foster leave with a wealth of experience and
         knowledge, and the foster care program loses a home for a child in need. While foster
         parents leave the system for a variety of reasons, many leave because they are frustrated
         and exhausted. They are weary from navigating a foster care system that is difficult and
         inoperable. To facilitate the transition of the foster care program to adapt to the changes




Retaining Foster Parents                          ii                                     OEI-07-00-00601
         of today’s American families and improve retention practices, we offer suggestions and
         recommendations to both States and ACF which will facilitate:

                     !         access to needed services; 

                     !         improved foster parent supports; and

                     !         the collection of information to identify and address the challenges

                               associated with retaining foster parents.

AGENCY COMMENTS

         We received comments on this report from ACF. The ACF concurs with our findings and
         recommendations, stating that the information presented in this report will be useful to
         them in their continued efforts to meet the needs of this country’s children and families.
         Their comments emphasize ACF’s continued focus on the importance of children’s
         issues. In addition, ACF provided important contextual information and suggestions
         which served to enhance the report. We have made revisions to the report based on
         ACF’s comments. The full text of their comments is contained in the appendix.




Retaining Foster Parents                         iii                                   OEI-07-00-00601
                            TABLE OF CONTENTS


                                                                                                                             PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS


          Lack of Agency Supports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


          Limited Caseworker Support . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


          Inadequate and Inaccessible Services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


          Negative Effects of Abuse Allegations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          States Lack of Retention Data . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


APPENDIX


          Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

                               INTRODUCTION
PURPOSE

          To identify challenges in retaining foster parents.

BACKGROUND

          The ideal foster care system would have a sufficient number of foster families with the
          skills to meet the needs of children removed from their homes. However, States are
          experiencing a shortage of families willing to provide foster care, especially those
          willing or able to meet the specific needs of the children in care (e.g., children with
          mental disabilities, physical disabilities, behavior problems). These shortages are
          indicative of States’ problems recruiting foster families (“Recruiting Foster Parents,”
          OEI-07-00-00600) and retaining those families already in the system. This report
          identifies why non-relative foster families discontinue fostering as described by foster
          parents, caseworkers, and program managers.

          The majority of children in the foster care system are cared for in foster family homes; the
          remainder are cared for in institutions, group homes, or other group settings. Based on
          information reported to the Administration for Children and Families (ACF) by
          45 jurisdictions, the District of Columbia, and Puerto Rico, via the Adoption and Foster
          Care Analysis and Reporting System (AFCARS) for the semi-annual reporting period
          March 31, 2000, approximately 581,000 children were in foster care. Forty-seven percent
          of those children were cared for in non-relative foster family homes. The remaining
          53 percent were cared for in a variety of foster care settings as outlined in the table on the
          following page. Between April 1, 1998, and March 31, 1999, the number of children in
          foster care increased by 38,000. The mean length of time a child remained in foster care
          was 32 months.

          The ideal foster care system would have a sufficient number of families with the skills to
          meet the needs of the children removed from their homes. Retaining foster parents,
          especially those willing to care for children with mental, behavioral, or emotional issues
          is essential to States efforts to provide care for children in need.




Retaining Foster Parents                            1                                      OEI-07-00-00601
                                 Placement Settings of Children in Foster Care
                                           During Fiscal Year 2000

                                                                                        Children In Placement

                               Placement Setting                                 Percent of                Num ber of
                                                                               Foster Children           Foster Children

           Foster Family Homes (Non-Relative)                                          47                       274,100

           Foster Family Homes (Relative)                                              26                       151,864

           Institutions                                                                10                       57,590

           Group Homes                                                                  8                       46,279

           Pre-Adoptive Homes                                                           4                       22,484

           Trial H ome V isits (with own families)                                     2.7                      15,818

           Runaway and H omeless Youth Shelters                                        1.4                       7,886

           Supervised Independent Living Facilities                                     .9                       4,979

           Total Num ber of Children in Foster Care                                    100                      581,000
           Source: AFCARS 2000

          * Pre-Adoptive Homes, Trial Home Visits (with child’s family), Runaway and Homeless Youth Shelters,
           Supervised Independent Living Facilities



Federal Role in Foster Care

          Federal financial assistance for children and families began with implementation of the
          Aid to Families with Dependent Children (AFDC) program, Title IV-A of the Social
          Security Act, in 1935. The Federal role in foster care began in 1961, when Federal funds
          were made available to provide maintenance payments for children removed from AFDC
          eligible families in accordance with Federal requirements.

          The Federal role was further expanded with implementation of the Adoption Assistance
          and Child Welfare Act of 1980 (P.L. 96-272). The Act amended child welfare services
          laws to institute financial incentives for States to provide certain protections for children
          in foster care under Section 427 of the Social Security Act (Title IV-B) and established
          the Title IV-E foster care program. As a result, the foster care component of the AFDC
          program was transferred to the new Title IV-E program in October 1982, and Federal
          Title IV-E foster care funds became available to provide maintenance payments for
          children removed from AFDC eligible families in accordance with Federal requirements.
          As such, States can claim reimbursement for foster care maintenance payments made on
          behalf of children who meet the eligibility criteria outlined in Section 472 of the Social
          Security Act. The Adoption and Safe Families Act (ASFA) of 1997 was intended to
          provide States with the necessary tools and incentives to achieve the safety, permanency,
          and well-being goals indicated in Public Law 96-272. As a result of ASFA, many States
          have chosen to recruit jointly for adoptive and foster families.

Retaining Foster Parents                                           2                                                     OEI-07-00-00601
          The Title IV-E foster care program is designed to assist States in providing safe and
          appropriate care for children in placements outside their homes, whether in foster family
          homes, residential child care facilities, or other eligible foster care facilities. The
          program provides unlimited matching funds to States to assist with the cost of foster care
          payments for children who meet income eligibility requirements and have been removed
          from their home as the result of a judicial determination that continuation in the home
          would be contrary to the welfare of the child. Funds are also available to cover certain
          administrative and training costs associated with the provision of foster care.

          The ACF has regulatory oversight of the Title IV-E foster care program, including
          approval of State plans to ensure State foster care programs are operating within Federal
          guidelines. States administer the Title IV-E program in accordance with the approved
          State plans. The ACF has recently begun to monitor States’ conformity with their State
          plans through Children and Family Services reviews.

          The ACF also provides limited technical assistance to States through the Children’s
          Bureau National Resource Centers. However, most network technical assistance is
          focused on safety and permanency placements of children who enter the child welfare
          system. States can also request onsite training and technical assistance from the Centers,
          but receive little, if any, technical assistance to assist them specifically with the retention
          of foster parents.

Funding for Foster Care

          Title IV-E is an entitlement program; therefore States can claim Federal reimbursement
          for foster care maintenance payments made on behalf of all children whose families meet
          the income and program eligibility criteria for program participation under Section 472 of
          the Social Security Act and implementing regulations. The ACF provides States with
          Federal funds by reimbursing a certain percentage of each State’s own expenditures for
          foster care maintenance costs. The rates at which the Federal government reimburses the
          States’ Title IV-E expenditures for the cost of foster care maintenance are the same rates
          at which the Centers for Medicare and Medicaid Services matches State expenditures for
          medical assistance (Medicaid), and range between 50 and 78 percent. The Federal match
          rates for administrative and training costs associated with the Title IV-E foster care
          program are set at 50 and 75 percent respectively.

          Because the Title IV-E foster care program is an entitlement program, Federal
          expenditures for all Title IV-E program expenses are open-ended and will increase in
          accordance with State expenditures for eligible children. Federal expenditures for
          Title IV-E foster care program totaled $4 billion in fiscal year (FY) 1999 and
          $4.3 billion in FY 2000. Federal funding for the Title IV-E foster care program totalled
          $4.4 billion in FY 2001. Estimated Federal funding for the program is $5.1 billion
          in FY 2002.




Retaining Foster Parents                             3                                      OEI-07-00-00601
METHODOLOGY

          We used two mechanisms to conduct this inspection. We judgementally selected a
          sample of five States (California, Florida, Illinois, New York, and Texas) as the primary
          source for data collection. Based on FY 1999 AFCARS data reported to ACF,
          approximately 53 percent of the nation’s foster children reside in these 5 States. In
          addition to geographic diversity, the five States provided a mix of both county
          administered (California and New York) and State administered (Florida, Illinois, and
          Texas) foster care programs.

          In the five States, we collected in-depth information about retention issues through
          personal interviews with State foster care program managers, and focus group interviews
          with child welfare staff and current and former foster parents. Child welfare staff
          interviewed included caseworkers, caseworker supervisors, foster care recruitment
          specialists, and staff from private foster care agencies with whom the State foster care
          agencies contract. At a minimum, we conducted one foster parent and one foster care
          program staff focus group interview in both an urban and rural location in each of the
          five States. In total, we conducted 14 foster parent and 11 child welfare staff focus
          groups in the 5 States, interviewing 115 foster parents and 107 child welfare staff
          respectively.

          We also used a mail survey to solicit information from the foster care program managers
          for the 50 States, the District of Columbia, and Puerto Rico to determine their efforts to
          retain foster care families. We received survey responses from 41 foster care program
          managers. We did not receive responses from the District of Columbia, Hawaii, Indiana,
          Louisiana, Maryland, Montana, Ohio, Oregon, Puerto Rico, Washington, or Wisconsin.
          The completed survey from Kentucky was received after our analysis was completed.
          However, these 12 entities account for only 19 percent of the children in non-relative
          foster care homes and 9 percent of the total number of the children in foster care.

          The report focuses primarily on information provided by foster parents. We believed they
          were best positioned to describe issues related to retention. When we were able, we
          linked the statements of foster parents with those of caseworkers and program managers.
          It should be noted that we made no attempt to assess State reimbursement rates for foster
          care.

          We conducted this inspection in accordance with the Quality Standards for Inspections
          issued by the President’s Council on Integrity and Efficiency.




Retaining Foster Parents                           4                                    OEI-07-00-00601
                                       FINDINGS
          The Title IV-E foster care program was developed in an era when women typically
          worked at home to maintain their households and care for children and other family
          members. Today, the world is different. In two-parent families, both parents often work
          outside the home, leaving their children in the care of daycare providers or other care
          givers. An ever-increasing number of households are managed by single working
          parents. However, the foster care program has failed to keep pace with changes in the
          American family. Foster parents believe foster care programs continue to operate based
          on the assumption that they can willingly choose not to work, be available at all times,
          and independently locate and secure the services necessary to meet the needs of the
          children in their care.

          During the course of this inspection, we had the opportunity to talk with foster parents
          with varying levels of experience in the foster care system. Some foster parents had cared
          only for one child, while others had entered the foster care system only as an avenue to
          adoption. Other foster parents had cared for hundreds of children over the course of
          many years. Despite these differences, most foster parents said fostering affords them
          opportunities to give back to their communities and make a difference in the lives of the
          children placed in their care. Every foster parent we spoke with said they had, at some
          time, considered leaving the foster care system. Even so, many foster parents continue to
          foster because of the personal satisfaction they receive from fostering.

          In our discussions with foster parents, caseworkers, and program managers, we were
          advised of the many frustrating reasons families choose to no longer foster. Many of the
          reasons are not new and little has changed over the years. What has changed are family
          dynamics and the increased needs of foster children, greatly intensifying the challenges
          faced by foster parents. Foster parents in all five States visited indicated that children
          coming into care have more behavioral problems than in the past (e.g., reactive
          attachment disorder, higher incidence of physical and/or sexual abuse), creating a greater
          need for support and assistance from foster care agencies and caseworkers.

Foster Families Desire Greater Opportunity to Voice Their
Concerns
          The reality of foster care programs is that foster parents are often left to their own devices
          to navigate the complex foster care system. According to foster parents, families willing
          to provide safe homes for foster children receive only limited information to assist them
          in locating and obtaining the services necessary to meet the needs of children in their
          care. Foster parents said inadequate supports, limited agency recognition, and the
          financial strain of fostering often leaves them feeling frustrated and unappreciated.




Retaining Foster Parents                            5                                      OEI-07-00-00601
Insufficient Agency Supports Discourages Foster Parents

          Many foster parents expressed feeling unsupported and unappreciated by foster care
          agencies. Many families believe caseworkers and agency staff fail to value their
          suggestions and opinions regarding the needs of children in their care. They were also
          unaware of any formal procedures to allow them to voice their concerns. Foster parents
          said they are the most knowledgeable of the needs of the children in their care, and
          believe it is essential that they be included as part of the “team” involved in decisions
          concerning foster children in their care. However, we heard several instances in which
          families were left out of the important decisions concerning the children (e.g., returning
          children to their biological parents, medical necessities, psychological treatment options).

          Foster parents in many States have developed local foster parent associations. Statewide
          foster parent associations also exist in 36 of the 41 States responding to our survey. Local
          organizations maintained and administered by foster parents strive to provide foster
          families with resources and supports that they might otherwise be without (e.g., clothing,
          food, cleaning supplies). Several families indicated these local associations are a
          valuable resource, but are weakened by their inability to influence local foster care
          program administrators and legislators.

Foster Parents Pay for Additional Expenses

          Foster parents in all five States described incurring expenses exceeding their foster care
          reimbursement and the negative impact it has on retention. During foster parent focus
          groups, we heard stories of families receiving children with nothing more than the clothes
          they were wearing at the time. In other instances, families have paid for transportation to
          numerous medical, psychological, and caseworker appointments. Foster parents
          emphasized the needs of these children are often immediate. To ensure their social
          development, it is equally important that foster children participate in extra-curricular
          activities (e.g., sporting and social events). However, foster parents are often left to pay
          for the costs associated with a foster child’s participation in these activities (e.g., sports
          equipment and fees). In all five site visits, foster parents reported contemplating no
          longer fostering because of the additional financial strain it places on them.

          Foster care program managers and caseworkers did not perceive the expense of fostering
          as important an element in retention as foster parents. In fact, only six of the program
          managers responding to our survey cited financial issues as a primary barrier to retaining
          foster families. While caseworkers included in our focus groups were more sensitive to
          the impact that additional expenses have on foster families, they believed a lack of
          available services has a greater impact on retention than do expenses associated with
          fostering.




Retaining Foster Parents                            6                                      OEI-07-00-00601
They Experience Limited Casew orker Support
          The foster care system is designed as a system of supports, primarily targeted to promote
          the safety and well-being of each child in care. An essential link in providing a safe and
          nurturing environment for the children in foster care is the relationship between
          caseworkers and foster parents. Caseworkers are most often the front line support to
          foster parents. When poor relationships exist between caseworkers and foster parents, the
          availability of services and information needed to make the best choices for foster
          children becomes limited.

Caseworkers are too Often Inaccessible

          In each of the five States we visited, foster parents reported the need for greater support
          and assistance from caseworkers, and said they are encountering greater difficulty
          accessing caseworkers. Several of the foster parents said that caseworkers did not return
          their calls for days or even weeks. Even when able to contact caseworkers, foster parents
          said they have experienced difficulty in getting them to respond to their needs in a timely
          manner. Caseworker unresponsiveness left foster parents feeling frustrated and uncertain
          about how to resolve problems.

          When asked about their inaccessibility, caseworkers agreed that they are often difficult to
          reach or slow to respond. They attributed their inaccessibility to multiple responsibilities
          and high caseloads. For the 28 States that reported caseworker caseloads, the average
          caseload per worker ranged from 8 to 66, and may include case management for the
          child’s entire family. In addition to their regular caseloads, many caseworkers are also
          required to assist in recruiting, training, and licensing new foster parents; some are
          responsible for facilitating pre-service training classes for prospective foster parents;
          some caseworkers attend court proceedings involving foster children; and some assist
          families in completing home studies. These additional responsibilities further limit
          caseworkers’ abilities to address foster families’ concerns in an efficient and timely
          manner.

High Caseworker Turnover Leads to a Lack of Rapport

          In all five site visits, foster parents expressed difficulty in creating a consistent rapport
          with caseworkers because caseworker tenure is short, thus creating a revolving door of
          employees within the agencies. Of the 30 State responses we received to a question about
          caseworker tenure, foster care program managers in 13 States indicated the average tenure
          for child welfare workers in their States ranged between 13 and 24 months; seven
          program managers reported the average tenure to be between 25 and 48 months. Foster
          parents said they find it difficult to build rapport and a positive working relationship with
          caseworkers because new workers are constantly being assigned to the children in their
          care.

          Foster care caseworker positions tend to be entry-level and are usually filled with recent
          college graduates who may not fully understand the role the foster parent plays in the

Retaining Foster Parents                           7                                      OEI-07-00-00601
          lives of the children in their care. Often, new caseworkers have limited child welfare
          experience and may be unfamiliar with the types of children in foster care. They may also
          be unfamiliar with the available services or how to access them. Foster parents in focus
          groups described what they perceived as a lack of training for new caseworkers regarding
          effective communication with foster children and parents, and contend that the lack of
          training is manifested in the treatment they receive from caseworkers.

Multiple Caseworkers Create Difficulties

          Foster parents also expressed frustration in dealing with multiple caseworkers. Because
          caseworkers are assigned to individual children or sibling groups, foster families caring
          for more than one foster child may have several caseworkers. As such, foster parents
          often must deal with differing expectations regarding the kind of care and services the
          children need. Additionally, appointments with caseworkers and foster children become
          numerous and burdensome as foster parents attempt to coordinate their schedules and
          those of the children with their assigned caseworkers. For families already facing
          excessive demands on their time and energy, these situations can be particularly difficult.

They Need More Help Obtaining Services for Themselves and
Their Foster Children
          Caring for foster children can be more demanding than caring for one’s own children.
          This situation is readily apparent in families caring for both their birth children and foster
          children in their care. Parents must take special care when securing child care or respite
          services. They must seek medical and dental services that meet the requirements of the
          program. While Medicaid is available to pay for dental and medical services for foster
          children, these services are limited in their locality and availability. Ultimately, the
          burden to procure these necessities rests primarily on the shoulders of foster parents.

Respite and Child Care Services are Limited

          In four States, foster parents expressed frustration with insufficient or non-existent respite
          and child care services. Foster parents portray these services as paramount in the
          retention of families because they allow foster parents to work, complete other necessary
          activities (e.g., taking other children to medical appointments and attending school
          conferences), and provide opportunities for foster parents to take a break from the
          physical and emotional stress that accompanies fostering. Obtaining these services can be
          problematic because some agencies require that respite and child care providers be
          licensed and graduates of the pre-service training classes required of foster parents. Such
          requirements, although imposed to ensure the safety of children in foster care, greatly
          limit the pool of families. In addition, families report receiving little, if any, information
          regarding respite care givers and are often forced to seek respite services on their own.
          Program managers also alerted us to the fact that agencies limit the number of hours for
          which families can claim reimbursement for respite care each month, and that some
          agencies provide no reimbursement for such care.


Retaining Foster Parents                            8                                      OEI-07-00-00601
          Despite foster parent concerns about the lack of respite and child care, State foster care
          program managers frequently did not rate these services as important to retention. Only
          14 of 41 program managers listed the need for respite and child care as important services
          in the retention of foster care families. These results may partially reflect the State’s own
          difficulty in addressing this need.

          When asked about foster parents’ concerns regarding the lack of respite and child care,
          State foster care program managers and caseworkers noted that the difficulties families
          have in obtaining those services may be a result of limited State funds. One foster care
          program manager said that there are times when they do not inform families about child
          care services because they lack the fiscal resources to administer them.

Dental and Medical Services are Difficult to Obtain

          In four of the site visits, foster parents expressed frustration with the lack of dental care
          available to foster children. They report that access to dental care is difficult because of
          the limited number of dentists who accept Medicaid. The lack of dentists is particularly
          problematic because most States require that children receive dental services while in the
          care of a foster family. Foster parents said they are finding it increasingly difficult to
          locate dentists willing to accept Medicaid patients, traveling long distances to acquire
          dental services, and encountering problems scheduling dental appointments (i.e., some
          dentists see Medicaid patients only on certain days of the week or month, during limited
          set hours, or only care for a limited number of Medicaid patients).

          Foster parents also expressed difficulty locating and accessing other medical and mental
          health services. In three States, foster parents stated that medical care is very difficult to
          obtain because fewer physicians are participating in the Medicaid program. Like dentists,
          many of the physicians that do participate in the Medicaid program have chosen to limit
          the care they provide and the hours and days they will treat Medicaid patients. Because
          all children in foster care are Medicaid eligible, locating and obtaining providers who
          accept Medicaid is essential.

          Only one of the State foster care program managers who responded to the survey listed
          access to medical care as one of the primary reasons families choose not to continue
          fostering. However, foster parents report that the difficulties associated with accessing
          medical care contribute to their fatigue and frustrations with fostering.

False Allegations of Abuse and Investigations Trouble Foster
Parents
          In every foster parent focus group conducted, foster parents expressed concerns about
          being investigated for false allegations of abuse and neglect. They said that, while they
          understand procedures to address allegations are essential in protecting children, false
          allegations can greatly harm the emotional well-being of foster parents. Such allegations
          can also be a financial drain on foster parents and affect their professional credibility. In


Retaining Foster Parents                            9                                      OEI-07-00-00601
          addition to the embarrassment and disruption that false allegations may bring, foster
          parents worry that their biological or adopted children will be removed from their home
          because of an allegation of abuse regarding a foster child.

          According to foster parents who have been fostering for several years, many new foster
          families are unaware of the likelihood that they will be accused and investigated for abuse
          and are unprepared for the impact it will have on them. One experienced foster parent
          said “it’s not a matter of if you will be accused of abuse and neglect, but when you will be
          accused. If you remain a foster parent long enough, it will eventually happen to you.”
          The strong likelihood of being accused of abuse or neglect can lead families to leave the
          foster care system. Yet, only 8 of 41 State program managers selected investigations of
          abuse as one of the reasons families are leaving the system.

          Another concern foster families have with abuse allegations is the length of time an
          unfounded or false allegation remains in the State system. Although the length of time
          varies from State to State, we heard that such allegations can remain in the State system
          as long as 7 years before they are expunged. Foster parents who have been cleared of all
          allegations brought against them contend that it is not merely the fact that their names are
          on record for an extended period of time, but that it is disheartening that their names were
          placed on record in the first place. Foster parents also said the investigations associated
          with such allegations leave them feeling insulted, distrusted, and potentially labeled as
          child abusers. Many foster parents expressed the emotional trauma they felt after being
          accused of the very thing they are trying to prevent. False allegations of abuse strip foster
          parents of their trust in the State system and leave them feeling unprotected.

Program Managers Lack the Data Needed to Improve
Retention
          States lack the performance indicators, benchmarks, and data collection tools needed to
          accurately assess why families choose to discontinue fostering. Despite the fact that 30 of
          the 41 foster care program managers who responded to our survey said they attempt to
          determine why families are leaving, only 4 program managers indicated they had
          established benchmarks for retention and only 10 had developed retention goals. While
          some States have attempted to determine why foster parents leave (e.g., conducting exit
          interviews or follow up surveys), most States have no systematic approach to determine
          why foster parents choose not to continue fostering.




Retaining Foster Parents                           10                                     OEI-07-00-00601
                           RECOMMENDATIONS
          Every family leaving the foster care system takes with them many hours of specialized
          training. Those who have fostered for years also take with them their experience in
          navigating the system, in finding needed services, and in caring for children with varied
          problems. The loss of these trained and experienced foster parents greatly impacts the
          foster care program. We believe it may have an even greater impact on programs than
          failing to recruit new foster families.

          Nevertheless, the foster parents with whom we spoke expressed a strong commitment to
          fostering. They are willing to commit time, resources, and energy to provide foster
          children with a stable and safe home environment. Yet, limited supports and a lack of
          services creates significant stresses and problems. Many foster parents struggle to care
          simultaneously for children, coordinate with multiple caseworkers, identify and access
          services, work, and maintain a household. It is imperative that efforts be made to reduce
          barriers to continued fostering.

Suggested Improvements
          Based on information provided by foster parents, foster care program managers, and
          caseworkers, we offer the following suggestions to State foster care program managers,
          local public and private foster care agencies, and foster care associations to augment the
          supports and services available to foster families:

                    !	     develop a State-wide “Foster Parent Tool Kit” to provide foster parents
                           with information about what they can expect from foster care agencies,
                           their role, rights, and protections as foster parents, and procedures for
                           voicing their concerns regarding the children in their care;

                    !	     promote the designation of foster parent advocates to work directly with
                           foster parents and the agency to represent the concerns of foster families
                           and give them a “voice” in determining both their best interests and the
                           interests of the children in their care;

                    !	     encourage networking and information sharing among foster parents
                           through local and national foster parent associations, support groups,
                           foster parent community newsletters, and agency alerts regarding policy
                           changes;

                    !	     establish “clothes closets” to disseminate clothing and provide household
                           necessities to foster parents in an effort to reduce their out-of-pocket
                           expenses and designate funds to cover one-time expenses (e.g., sports
                           equipment);



Retaining Foster Parents                           11                                     OEI-07-00-00601
                    !	     provide opportunities to develop consistent rapport between foster parents
                           and caseworkers;

                    !	     promote collaborative efforts by ACF, State agencies, and national
                           organizations to make child care and respite care services more accessible
                           to foster parents;

                    !      establish local networks of licensed child and respite care providers;

                    !	     provide foster parents with information (e.g., foster parent handbooks,
                           manuals) to assist them in navigating the foster care system and accessing
                           dental, medical, and any other needed services; and

                    !	     provide information to foster parents on how to cope emotionally and
                           financially with investigations of abuse. This can by accomplished by
                           including the information in existing training curriculum, and developing
                           training specifically focused on investigation survival.

Develop Retention Tracking Systems
          We noted numerous instances where foster care program managers did not fully
          appreciate the extent to which foster families viewed aspects of the program as barriers to
          continued fostering. We attribute this, in part, to the lack of retention goals and
          benchmarks that States currently utilize. To the extent that resources are available, ACF
          should provide technical assistance to assist States in improving retention through the

                    !	     development of outcome-based retention strategies to determine why
                           families choose not to continue fostering;

                    !      development of data tracking tools to collect retention information;

                    !      establishment of benchmarks and performance indicators; and

                    !      collection of retention data.




Retaining Foster Parents                            12                                    OEI-07-00-00601
                           AGENCY COMMENTS
          We received comments on this report from the Administration for Children and
          Families (ACF). The ACF concurs with our findings and recommendations, stating that
          the information presented in this report will be useful to them in their continued efforts to
          meet the needs of this country’s children and families. Their comments emphasize
          ACF’s continued focus on the importance of children’s issues. In addition, ACF
          provided important contextual information in which, for example, ACF notes that States
          can use some Federal funds for child care and respite care services and that 64 percent of
          foster children adopted in 1999 were adopted by foster parents. This information is
          beneficial in understanding the overall issues related to foster care. We believe that this
          kind of information provides valuable insight for the States, counties, and others working
          to enhance foster care programs across the country.

          We have made revisions to the report based on ACF’s comments. The full text of their
          comments is contained in the appendix.




Retaining Foster Parents                           13                                     OEI-07-00-00601
                                APPENDIX




Retaining Foster Parents   14       OEI-07-00-00601
Retaining Foster Parents   15   OEI-07-00-00601
Retaining Foster Parents   16   OEI-07-00-00601
Retaining Foster Parents   17   OEI-07-00-00601
Retaining Foster Parents   18   OEI-07-00-00601
                           ACKNOWLEDGMENTS

This report was prepared under the direction of Brian T. Pattison, Regional Inspector General for
Evaluation and Inspections in Kansas City. Other principal Office of Evaluation and Inspections
staff who contributed include:

Deborah Walden, Project Leader                      Linda Hall, Program Specialist

Mike Craig, Program Analyst

Steve Milas, Program Analyst

Gary Reese, Program Analyst


Technical Assistance

Barbara Tedesco, Technical Support Staff




Retaining Foster Parents                       19                                     OEI-07-00-00601
